1

FttOOF UJf SHiJttViUJtfj

I Do Hereby Declare as Follows:
That I am a citizen, over the legal age of 18 years and not
a party to the within litigation; that my residence address
is 2838 Esplanade, #15, Chico, California 95973;
That on the date entered below, I servedPETITION FOR WRIT OF CERTIORI
PROOF OF SERVICE
CERTIFICATE OF WORD COUNT
Timothy Kodani
PO Box 2039
rserxeiey, uA 94/U2i-0u39
(X) by placing a copy thereof enclosed in a sealed
envelope with first class postage affixed
thereto, in the U.S. mail at Chico, California, addressed
as depicted above.
I declare under penalty of perjury under the laws of the
State of California that the foregoing ipxtrue
and correct.
\
Dated: September 11, 2020.
)
f\
Larry Dick

A,

